                    NATIONAL SCIENCE FOUNDATION
                        ARLINGTON, VA 22230




    Office of
Inspector General



MEMORANDUM




                             SAC, Investigation Section
 SUBJECT:    Allegation of False Statements
       TO:   Case No. I93110049   .   -.   '




On November 18, 1993, we were contacted by Dr.
program director in NSF1s Division of
allegation that               had falsely stated on NSF proposal
number                          received a PhD frc;m-tat




                                                               -
University
We reviewed -award          jacket and contacted n         March 2,
 1994. -admitted      that she did not have her Ph   egree but that
 she was attempting to                                proposal was
 submitted. Apparently,                                d refused to
award the degree until                                 e in
dissertation; a     n   d 'here     in litigation over theamatter.
-stated      that she completed all of the work for her PhD at
and never intended to defraud NSF. o f f i c i a l s confirmed that
 the matter was being litigated.
On March 28, 1994, we received a letter via Fax from-          The
letter was from                       -doctoral          committee
chairman. and state                  xce~tlonof some revisions to
                            W w o r c had been completed at
                               n a dition, it was stated that the
                                     er degree at the fall term
commencement ceremony of              was the approximate
                                                --        time the
proposal to NSF was submitted.
We found that         false statement was immaterial:
stated that              have recommended the
regardless of        credentials. As we found no other impropoer
actions, further Yhvestigation is not warranted at this time.
This case is closed.
